Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


     HIGH-RISK SECURITY
  VULNERABILITIES IDENTIFIED
DURING REVIEWS OF INFORMATION
TECHNOLOGY GENERAL CONTROLS
 AT STATE MEDICAID AGENCIES




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                      March 2014
                                                     A-07-14-00433
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 High-risk security vulnerabilities we identified during reviews of information system
 general controls at 10 State Medicaid agencies raise concerns about the integrity of the
 systems used to process Medicaid claims.


WHY WE DID THIS REVIEW

High-risk security vulnerabilities we identified during previous, restricted reviews of information
system general controls at 10 State Medicaid agencies (State agencies) raise concerns about the
integrity of the systems used to process Medicaid claims. The integrity of the State agencies’
Medicaid systems depends on the effectiveness of the information system general controls,
which are critical to the reliability, confidentiality, and availability of Medicaid data. Without
effective general controls, State agencies are not able to adequately safeguard sensitive Medicaid
systems and data.

The Office of Inspector General’s (OIG) review of information system general controls at 10
State agencies conducted from 2010 through 2012 identified pervasive high-risk vulnerabilities.
In responding to OIG’s work and in agreeing with the vast majority of OIG’s recommendations,
the State agencies acknowledged the vulnerabilities and committed to addressing them. This
report aggregates the data from our series of audits while omitting details that could compromise
the security of any specific State agency system we audited. By doing so, the summary
information presented in this report may increase public awareness of these pervasive
vulnerabilities across State agencies and lead the Centers for Medicare & Medicaid Services
(CMS) and all States to strengthen system security. OIG has identified the security of health
information systems as a top challenge facing the Department and State agencies.

The objective of this review was to summarize the high-risk security vulnerabilities that we
noted as audit findings in our previous, restricted reviews of information system general controls
as those vulnerabilities related to the Medicaid Management Information Systems (MMIS) at 10
State agencies between calendar years 2010 and 2012.

BACKGROUND

We have been conducting reviews of the information system general controls at State agencies to
assess the integrity of State Medicaid systems for the last 12 years. We conducted these reviews
using selected procedures from the Government Accountability Office’s Federal Information
Systems Controls Audit Manual, which provides guidance in evaluating general controls over
computer-processed data from information systems. Our audit reports on these reviews made
recommendations to the State agencies regarding the vulnerabilities that we had identified; in
almost all cases, the State agencies agreed with our recommendations and described corrective
actions that they had taken or planned to take. We restricted the distribution of these reports to
the State agencies and the CMS action officials because of the sensitivity of the vulnerabilities in
the audit findings—vulnerabilities that could have left State agencies’ automated data processing
systems susceptible to exploitation or attack.



High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433)   i
Information system general controls are the structure, policies, and procedures that apply to an
entity’s overall computer operations, ensure proper operations of information systems, and create
a secure environment for application systems. Some primary objectives of general controls are
to safeguard data, protect computer applications, prevent unauthorized access to system software,
and ensure continued computer operations after unexpected interruptions. General controls are
applied at the entitywide level, the system level, and the business process application level.

WHAT WE FOUND

We identified a total of 79 findings in the 10 State Medicaid agencies whose information system
general controls we audited between calendar years 2010 and 2012. We grouped these 79
individual findings into 15 security control areas within 3 information system general control
categories: entitywide controls, access controls, and network operations controls. In the area of
entitywide controls, we identified significant and pervasive findings involving the need to
develop or strengthen formal, comprehensive plans for system security, contingency planning,
and configuration management, among other findings. Findings in the area of access controls
included frequently-noted vulnerabilities related to logical access and user account management,
login identification and authentication, and remote access. In the area of network operations
controls, we identified significant and pervasive findings regarding the need for formalized
policies and procedures for network device management and patch management, among other
findings.

In some of the general control areas, we noted findings with similar vulnerabilities in different
State agencies, which indicated that the vulnerabilities identified in these findings were systemic
and pervasive. However, because we did not test all of the same information system general
controls at each State agency and because we did not use a methodology that would permit us to
extrapolate our findings to all State agencies, we cannot conclude that all Medicaid information
system security environments have similar vulnerabilities.

Officials from several State agencies described some common causes when we discussed these
findings with them. They pointed most frequently to resource constraints that made information
system security a lower priority. Officials also described a lack of formal policies and
procedures when explaining the causes of the vulnerabilities. The effectiveness of these
information system general controls directly affects the State agencies’ ability to sustain secure
Medicaid systems.

WHAT WE CONCLUDE

This review aggregates findings from the individual reports that show serious vulnerabilities in
the 10 States’ MMIS. The State agencies advised us, in their comments on the individual
restricted reports on information system general controls, that they were addressing the
vulnerabilities that we had identified. The fact that some of the vulnerabilities were shared
among the 10 State agencies suggests that other State Medicaid information systems may be
similarly vulnerable. Medicaid agencies’ management should make information system security
a higher priority. We are continuing to conduct work in this area. This report is intended to
provide information to assist those State agencies and CMS in strengthening system security.



High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433) ii
                                                     TABLE OF CONTENTS


INTRODUCTION ...................................................................................................................... 1

       Why We Did This Review .................................................................................................. 1

       Objective ............................................................................................................................. 1

       Background ......................................................................................................................... 1
         Medicaid Program ........................................................................................................... 1
         Information System General Controls ............................................................................ 2

       How We Conducted This Review....................................................................................... 2

FINDINGS .................................................................................................................................. 2

       Entitywide Controls ............................................................................................................ 5
         System Security Plan—Eight Findings Identified .......................................................... 5
         Encryption—Eight Findings Identified........................................................................... 5
         Contingency Planning—Five Findings Identified .......................................................... 5
         Configuration Management—Five Findings Identified.................................................. 6
         Inventory Tracking—Three Findings Identified ............................................................. 6
         Risk Assessments—Three Findings Identified ............................................................... 6
         Security Configuration Baselines—Two Findings Identified......................................... 7

       Access Controls .................................................................................................................. 7
         Logical Access Rights—Eight Findings Identified ........................................................ 7
         Identification and Authentication—Six Findings Identified........................................... 8
         Remote Access—Six Findings Identified ....................................................................... 8
         Physical Security—Five Findings Identified .................................................................. 8

       Network Operations Controls ............................................................................................. 9
         Network Device Management—Nine Findings Identified ............................................. 9
         Patch Management—Six Findings Identified ................................................................. 9
         Antivirus Deployment—Three Findings Identified ...................................................... 10
         Logging and Monitoring—Two Findings Identified .................................................... 10

CONCLUSION ......................................................................................................................... 10

APPENDIXES

       A: Audit Scope and Methodology ................................................................................... 12

       B: Federal Requirements for Information System Security ............................................. 13




High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433) iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

High-risk security vulnerabilities we identified during previous, restricted reviews of information
system general controls at 10 State Medicaid agencies (State agencies) raise concerns about the
integrity of the systems used to process Medicaid claims. The integrity of the State agencies’
Medicaid systems depends on the effectiveness of the information system general controls,
which are critical to the reliability, confidentiality, and availability of Medicaid data. Without
effective general controls, State agencies are not able to adequately safeguard sensitive Medicaid
systems and data.

The Office of Inspector General’s (OIG) review of information system general controls at 10
State agencies conducted from 2010 through 2012 identified pervasive high-risk vulnerabilities.
In responding to OIG’s work and in agreeing with the vast majority of OIG’s recommendations,
the State agencies acknowledged the vulnerabilities and committed to addressing them. This
report aggregates the data from our series of audits while omitting details that could compromise
the security of any specific State agency system we audited. By doing so, the summary
information presented in this report may increase public awareness of these pervasive
vulnerabilities across State agencies and lead the Centers for Medicare & Medicaid Services
(CMS) and all States to strengthen system security. OIG has identified the security of health
information systems as a top challenge facing the Department and State agencies.

OBJECTIVE

Our objective was to summarize the high-risk security vulnerabilities that we noted as audit
findings in our previous, restricted reviews of information system general controls as those
vulnerabilities related to the Medicaid Management Information Systems (MMIS) at 10 State
agencies between calendar years (CYs) 2010 and 2012.

BACKGROUND

Medicaid Program

The U.S. Department of Health and Human Services (HHS) oversees States’ use of Federal
entitlement benefits for the Medicaid program. Federal regulations require State agencies to
establish the appropriate automated data processing (ADP) security requirements on the basis of
recognized industry standards and standards governing security of Federal ADP systems and
information processing (45 CFR § 95).

We have been conducting reviews of the information system general controls at State agencies to
assess the integrity of State Medicaid systems for the last 12 years. We conducted these reviews
using selected procedures from the Government Accountability Office’s Federal Information
Systems Controls Audit Manual, which provides guidance in evaluating general controls over
computer-processed data from information systems. Our audit reports on these reviews made
recommendations to the State agencies regarding the vulnerabilities that we had identified; in



High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433) 1
almost all cases, the State agencies agreed with our recommendations and described corrective
actions that they had taken or planned to take. We restricted the distribution of these reports to
the State agencies and the CMS action officials because of the sensitivity of the vulnerabilities in
the audit findings—vulnerabilities that could have left State agencies’ ADP systems susceptible
to exploitation or attack.

Information System General Controls

Information system general controls are the structure, policies, and procedures that apply to an
entity’s overall computer operations, ensure proper operations of information systems, and create
a secure environment for application systems. Some primary objectives of general controls are
to safeguard data, protect computer applications, prevent unauthorized access to system software,
and ensure continued computer operations after unexpected interruptions. General controls are
applied at the entitywide level, system level, and business process application level.

The effectiveness of general controls is a significant factor in determining the effectiveness of
business process application level controls. Without effective general controls at the entitywide
and system levels, business process application level controls generally can be rendered
ineffective by circumvention or modification. General controls affect the integrity of the
program and are critical to ensuring the confidentiality, integrity, and availability of data.

HOW WE CONDUCTED THIS REVIEW

We grouped the high- and moderate-impact audit findings from our previous, restricted reviews
of information system general controls at 10 State agencies into 3 core categories of general
controls: entitywide controls, access controls, and network operations security controls. Taken
together, these groups of high- and moderate-impact audit findings identify high-risk
vulnerabilities in the State agencies’ MMIS. All of the vulnerabilities presented in this report
were noted in the previous reviews that we performed in CYs 2010, 2011, and 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology, and Appendix B contains a
detailed listing of the criteria used in the audits presented in this report.

                                               FINDINGS

We identified a total of 79 findings in the 10 State Medicaid agencies whose information system
general controls we audited between CYs 2010 and 2012. We grouped these 79 individual
findings into 15 security control areas within 3 information system general control categories:
entitywide controls, access controls, and network operations controls. In the area of entitywide
controls, we identified significant and pervasive findings involving the need to develop or



High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433) 2
strengthen formal, comprehensive plans for system security, contingency planning, and
configuration management, among other findings. Findings in the area of access controls
included frequently-noted vulnerabilities related to logical access and user account management,
login identification and authentication, and remote access. In the area of network operations
controls, we identified significant and pervasive findings regarding the need for formalized
policies and procedures for network device management and patch management, among other
findings.

In some of the general control areas, we noted findings with similar vulnerabilities in different
State agencies, which indicated that the vulnerabilities identified in these findings were systemic
and pervasive. However, because we did not test all of the same information system general
controls at each State agency and because we did not use a methodology that would permit us to
extrapolate our findings to all State agencies, we cannot conclude that all Medicaid information
system security environments have similar vulnerabilities.

Officials from several State agencies described some common causes when we discussed these
findings with them. They pointed most frequently to resource constraints that made information
system security a lower priority. Officials also described a lack of formal policies and
procedures when explaining the causes of the vulnerabilities. The effectiveness of these
information system general controls directly affects the State agencies’ ability to sustain secure
Medicaid systems.

The table on the following page summarizes our findings and totals them by general control area
and State agency.




High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433) 3
       Table: High- and Moderate-Impact Findings Totaled by General Control Area
                              and State Medicaid Agency

                                                                                State Medicaid Agency
                                                                                                                                               Total




                                                                                                      State G

                                                                                                                State H
                                        State A



                                                            State C

                                                                      State D
                                                  State B




                                                                                  State E

                                                                                            State F




                                                                                                                                    State J
                                                                                                                          State I
                                                                                                                                              Numbers
                                                                                                                                                 of
     General Control Areas                                                                                                                    Findings

Entitywide Controls
System security plan                              1         1                               1         3                   1         1            8
Encryption                               1        1         1                     1         1                   1         1         1            8
Contingency planning                                        1         1           2                                       1                      5
Configuration management                          1                   1           2                                       1                      5
Inventory tracking                       1                                        1         1                                                    3
Risk assessments                                            1                                         1                   1                      3
Security configuration baselines                                      1           1                                                              2

Access Controls
Logical access rights                             1                   1           1                   2                   2         1            8
Identification and authentication                 1                               2         1         1                   1                      6
Remote access                            1                  1         1           1         1                   1                                6
Physical security                        1        1         1                     1                   1                                          5

Network Operations Controls
Network device management                         1                   2           2         1                   1         1         1            9
Patch management                         1        1                   1           1         1                             1                      6
Antivirus deployment                              1                   1           1                                                              3
Logging and monitoring                                                1           1                                                              2

Total Findings                           5        9         6         10         17         7         8         3         10        4           79




High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433) 4
ENTITYWIDE CONTROLS

An entitywide information security management program is the foundation of a security control
structure and a reflection of senior management’s commitment to addressing security risks. The
entitywide information security management program should establish a framework and
continuous cycle of assessing risk, developing and implementing effective security procedures,
and monitoring the effectiveness of these procedures. Without effective entitywide general
controls, business process application level controls may be rendered ineffective by
circumvention or modification. We identified 34 entitywide control findings at the 10 State
agencies and grouped these findings into 7 security control areas.

System Security Plan—Eight Findings Identified

System security plans should be formalized at the system and application levels for networks,
facilities, and systems or groups of systems, as appropriate. These plans and related policies
should cover all major systems and facilities and should outline the duties of those who are
responsible for overseeing security and those who own, use, or rely on the State agency’s ADP
resources.

We identified eight findings in six States related to system security plans. For example, one
State agency had not developed a formal, comprehensive system security plan that addressed the
general support system and major application elements of the MMIS. Without a formal,
comprehensive system security plan, State agencies could experience long-term consequences,
including risks to data security, fraud, and monetary loss.

Encryption—Eight Findings Identified

Encryption is used to protect the confidentiality of stored data and data that are being transmitted
to and from the secured network via the Internet. Additionally, encryption is extremely
important in protecting wireless access to the secured network and on portable storage devices.
Establishing encryption where necessary is a basic step for protecting sensitive data.

We identified eight findings in as many States related to encryption vulnerabilities. For example,
1 State agency had not encrypted the hard drives of 14 portable laptop computers, leaving them
susceptible to unauthorized access.

Contingency Planning—Five Findings Identified

Contingency plans should be formalized to ensure the availability of critical information systems
and the continuity of operations in emergencies. These plans should contain detailed roles,
responsibilities, recovery team designations, and procedures associated with the restoration of an
information system following a disruption.

We identified five findings in four States related to contingency planning vulnerabilities. For
example, in one State agency, management had not established policies and procedures requiring




High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433) 5
disaster recovery testing and had not tested its disaster recovery plan to recover and reestablish
business functions related to its claims processing.

Configuration Management—Five Findings Identified

Configuration management policies, plans, and procedures should be developed, documented,
and implemented at the entitywide, system, and application levels to ensure an effective
configuration management process. The procedures should cover employee roles and
responsibilities, change control and system documentation requirements, establishment of a
decisionmaking structure, and configuration management training. Configuration management
should be a key part of an entity’s Systems Development Life Cycle methodology. 1

We identified five findings in four States regarding configuration management vulnerabilities.
For example, one State agency’s network administrator was able to implement system changes as
needed without formal management approval or documented procedures for implementation and
testing, a practice that could have resulted in a compromise to data confidentiality, integrity, or
availability of the system.

Inventory Tracking—Three Findings Identified

State agencies must maintain complete, accurate, and up-to-date inventories of their ADP
systems to implement effective security programs and minimize vulnerabilities in those systems.
Without an inventory process, an agency cannot effectively manage information security controls
across the agency. The inventory is necessary for effective monitoring, testing, and evaluation of
information technology controls and for supporting information technology planning, budgeting,
acquisition, and management.

We identified three findings in as many States related to inventory tracking vulnerabilities. For
example, one State agency had not established any type of formal agencywide inventory
mechanism to account for all information system components and devices and was unable to
identify all workstations and servers that were authorized to access the secure network and so
needed to be properly secured.

Risk Assessments—Three Findings Identified

Risk assessments should consider threats and vulnerabilities at the entitywide level, system level,
and application levels. When State agencies perform risk assessments, they should consider
(1) risks to data confidentiality, integrity, and availability and (2) the range of risks to their
systems and data, including those posed by authorized users and unauthorized outsiders who may
try to break into the systems.

We identified three findings in as many States related to risk assessment vulnerabilities. For
example, one State agency had not, since implementing its MMIS, performed a risk assessment
of the MMIS to identify potential threats and vulnerabilities. By not performing a risk

1
  A Systems Development Life Cycle refers to the policies and procedures that govern software development and modification as
a software product goes through each phase of its life cycle.


High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433) 6
assessment, the State agency created the possibility that it would not have identified sensitive
information or implemented required actions to reduce risks.

Security Configuration Baselines—Two Findings Identified

Each State agency should maintain current configuration information for all systems in a formal
configuration baseline that contains the configuration information formally designated at a
specific time during a system’s life. Past configuration baselines with approved changes from
those baselines constitute the current configuration information. There should be a current and
comprehensive baseline inventory of hardware, software, and firmware, and it should be
routinely validated for accuracy.

We identified two findings in as many States related to security configuration baseline
vulnerabilities. For example, one State agency had not established any documented baseline
security configurations to dictate the minimum security configuration settings for all deployed
workstations, servers, and network devices. That practice allowed system support staff to build
and implement new servers and workstations without any oversight or review.

ACCESS CONTROLS

Access controls include physical controls, such as keeping computers in locked rooms to limit
physical access, and logical controls, such as security software programs designed to prevent or
detect unauthorized access to sensitive files. Access controls should be formally developed,
documented, disseminated, and periodically updated to provide reasonable assurance that
information security resources are protected against unauthorized modification, disclosure, loss,
or impairment. Inadequate access controls diminish the reliability of computerized data and
increase the risk of destruction or inappropriate disclosure of data. It is fundamental that control
techniques for both physical and logical access controls be risk based. We identified 25 access
control findings at the 10 State agencies that we audited and grouped these findings into 4
security control areas.

Logical Access Rights—Eight Findings Identified

Each State agency’s process for managing user accounts should include the identification of the
various account types (i.e., individual, group, system), the establishment of conditions for group
membership, and the assignment of associated authorizations. Additionally, resource owners
should periodically identify authorized users and specify access rights that are granted on the
basis of a valid need to know as determined by appropriate officials and should consider the
proper segregation of duties. Furthermore, State agencies should notify account managers when
users have their employment terminated or are transferred and ensure that associated accounts
are removed, disabled, or otherwise secured.

We identified eight findings in six States related to logical access rights. For example, one State
agency had not established any formal policies regarding user account management and had not
performed periodic reviews of network accounts to ensure that access was appropriately
authorized and that accounts were properly configured. Without periodically reviewing user



High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433) 7
accounts and user access, State agencies run the risk of allowing personnel to gain inappropriate
access to sensitive Medicaid data and systems, access that could lead to improper activities.

Identification and Authentication—Six Findings Identified

State agencies should require that users and devices be appropriately identified and
authenticated. User authentication establishes the validity of a user’s claimed identity, typically
at the login to a system or application. Users can be authenticated by using mechanisms such as
smart cards; by providing a piece of information that users alone know (e.g., a password or
personal identification number); or through a unique means of physical identification such as a
biometric fingerprint or retina scan. User identifications and authentications should be designed
to restrict access of legitimate users to the specific systems, programs, and files that they need
and to prevent others, such as hackers, from entering the system.

We identified six findings in five States related to identification and authentication
vulnerabilities. For example, one State agency had not enabled the network user account lockout
function after unsuccessful login attempts, an error that could have allowed intruders to
successfully run automated login attack tools without detection.

Remote Access—Six Findings Identified

The use of remote access to connect users with the State agencies’ secure networks via the
Internet places Medicaid systems at a higher risk of compromise than those systems that are
restricted to the use of internal network users only. As a result of this increased risk, accepted
standards require State agencies to allow remote access only when two-factor authentication (in
which one of the factors is provided by a device separate from the computer gaining access) is
used and only when the remote access technology conforms to approved encryption standards.

We identified six findings in as many States related to remote access vulnerabilities. For
example, one State agency was using an insecure remote access method, which sent unencrypted
data (including passwords) across the Internet, to perform system administration functions within
its MMIS.

Physical Security—Five Findings Identified

The effectiveness of physical security controls depends on the State agencies’ ability to
implement effective practices for reviewing access authorizations, controlling entry devices,
restricting entry during and after normal business hours, and controlling the entry and removal of
resources from the facility. Access to facilities should be limited to those having a legitimate
need for access. Inadequate physical access controls diminish the availability of computerized
data and increase the risk of destruction or inappropriate disclosure of data.

We identified five findings in as many States related to physical security vulnerabilities. For
example, one State agency’s physical access control policies and procedures did not address the
review of electronic badge access rights; consequently, some terminated employees still had
access to the datacenter housing the State agency’s MMIS.



High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433) 8
NETWORK OPERATIONS CONTROLS

Once a network has been established, anyone with access to any computer on the network could
attempt to attack resources on that network. Network administrators configure and monitor
network operating systems to ensure that the network is secure against such attacks.

Network operations controls thus consist of the policies and procedures used to maintain,
manage, and secure the devices that connect to networks. Policies and procedures that keep
devices up to date and configured properly and the monitoring of the network activity and its
devices for security and maintenance issues are critical to the overall security and reliability of
the network. We identified 20 network operations control findings at 8 of the 10 State agencies
that we audited and grouped these findings into 4 security control areas.

Network Device Management—Nine Findings Identified

Network device management consists of the policies and procedures for effectively managing the
security configurations on the entities’ network firewalls, routers, and switches. Additionally,
network device management includes the operation of network management systems, which
provide administrators with the ability to control and monitor the network device configurations
from a central location. Network management systems obtain status data from network devices,
enable network managers to make configuration changes, and alert them of problems.

We identified nine findings in seven States related to network device management. For example,
one State agency had not implemented any formal policies and procedures for managing network
devices. In the absence of formal network device management policies and procedures,
administrators were using shared user accounts to administer the devices and there was no formal
process for implementing and tracking configuration changes to network devices.

Patch Management—Six Findings Identified

Patch management is the process of identifying, reporting, and effectively remediating
information system flaws in an operating system or program. Timely patching helps
organizations maintain operational efficiency and effectiveness, overcome security
vulnerabilities, and maintain stability in the production environment. State agencies should
establish a documented, systematic, and accountable process for managing exposure to
vulnerabilities through the timely deployment of patches.

We identified six findings in as many States related to patch management vulnerabilities. For
example, 1 State agency had not established an automated process for patching its network
devices and was attempting to manually patch and monitor more than 500 devices. Additionally,
approximately 30 percent of that same State agency’s Microsoft servers and workstations did not
have the latest patches. Without adequate patch management, systems may be susceptible to
exploits that can lead to unauthorized disclosure, modification, or nonavailability of Medicaid
data because out-of-date systems are vulnerable to exploitation.




High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433) 9
Antivirus Deployment—Three Findings Identified

Antivirus management is the automated process used to effectively identify, isolate, and
eliminate malicious software. Antivirus software should be implemented and maintained on
computers and critical information system entry points to detect and eradicate malicious software
transported by email, removable media, or other methods. Antivirus controls are important for
detection and removal of malicious computer viruses, which can infect computers or computer
systems.

We identified three findings in as many States related to antivirus deployment vulnerabilities.
For example, one State agency had not established formal policies and procedures to address the
antivirus software deployment and update requirements. In the absence of formal antivirus
deployment policies and procedures, more than 1,000 workstations and 200 servers from the
State agency’s network were not reporting to the antivirus software control console, which was
used to track the antivirus deployment and update status. Without updated antivirus deployment,
State agencies expose their networks to known vulnerabilities, which could leave sensitive
systems and data susceptible to unauthorized access and exploitation.

Logging and Monitoring—Two Findings Identified

Computer security log management is the process of generating, transmitting, analyzing, storing,
and disposing of computer security log data. Computer security logs are generated by many
sources, including security software, such as antivirus software, firewalls, and intrusion detection
and prevention systems; operating systems on servers, workstations, and networking equipment;
and applications. Given the number of sources and the volume of log data, an automated log
management system is essential for identifying security incidents, policy violations, fraudulent
activity, and operational problems.

We identified two findings in as many States related to logging and monitoring vulnerabilities.
For example, one State agency had not established network logging and monitoring policies and
procedures to address the types of information to be logged, the way in which those logs are to
be monitored, and the types of events that should be reported to management. Additionally, that
same State agency had not implemented a centralized log management system for all servers and
had not deployed any automated software to actively monitor and analyze the log data that were
being captured, thereby increasing the risk that inappropriate access to Medicaid data had gone
undetected by management.

                                             CONCLUSION

This review aggregates findings from the individual reports that show serious vulnerabilities in
the 10 States’ MMIS. The State agencies advised us, in their comments on the individual
restricted reports on information system general controls, that they were addressing the
vulnerabilities that we had identified. The fact that some of the vulnerabilities were shared
among the 10 State agencies suggests that other State Medicaid information systems may be
similarly vulnerable. Medicaid agencies’ management should make information system security




High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433) 10
a higher priority. We are continuing to conduct work in this area. This report is intended to
provide information to assist those State agencies and CMS in strengthening system security.




High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433) 11
               APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We grouped the high- and moderate-impact audit findings from our previous, restricted reviews
of information security general controls at 10 State agencies into 3 core categories of general
controls: entitywide controls, access controls, and network operations security controls. Taken
together, these groups of high- and moderate-impact audit findings identify high-risk
vulnerabilities in the State agencies’ MMIS. All of the vulnerabilities presented in this report
were noted in the previous reviews that we performed in CYs 2010, 2011, and 2012.

METHODOLOGY

We conducted the information security general controls audits in 10 States using selected
procedures from the Government Accountability Office’s Federal Information Systems Controls
Audit Manual, which provides guidance in evaluating general controls over computer-processed
data from information systems. However, the selected procedures performed at the State
agencies chosen for this review varied; we did not review all of the control areas in all 10 State
agencies. We conducted these audits by observing information security operations, interviewing
State agency personnel, testing hardware and software configurations, and analyzing system
security reports.

To determine the potential impact of each finding, we used information described in the National
Institute of Standards and Technology (NIST) Federal Information Processing Standard (FIPS)
Publication 199, which defines the following three levels of potential impact should there be a
breach of security:

    •   Low if the loss of confidentiality, integrity, or availability could be expected to have a
        limited adverse effect on organizational operations, organizational assets, or individuals.

    •   Moderate if the loss of confidentiality, integrity, or availability could be expected to
        have a serious adverse effect on organizational operations, organizational assets, or
        individuals.

    •   High if the loss of confidentiality, integrity, or availability could be expected to have a
        severe or catastrophic adverse effect on organizational operations, organizational assets,
        or individuals.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433) 12
                       APPENDIX B: FEDERAL REQUIREMENTS FOR
                           INFORMATION SYSTEM SECURITY

The principal criteria used in these reviews included:

    •   NIST Special Publication (SP) 800-12, An Introduction to Computer Security: The NIST
        Handbook;

    •   NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information
        Technology Systems;

    •   NIST SP 800-16, Information Technology Security Training Requirements;

    •   NIST SP 800-30, Risk Management Guide for Information Technology Systems;

    •   NIST SP 800-34, Contingency Planning Guide for Federal Information Systems;

    •   NIST SP 800-40, version 2.0, Creating a Patch and Vulnerability Management Program;

    •   NIST SP 800-41, Guidelines on Firewalls and Firewall Policy;

    •   NIST SP 800-46, Guide to Enterprise Telework and Remote Access Security;

    •   NIST SP 800-48, Guide to Securing Legacy IEEE 802.11 Wireless Networks;

    •   NIST SP 800-53, revision 3, Recommended Security Controls for Federal Information
        Systems and Organizations;

    •   NIST SP 800-61, Computer Security Incident Handling Guide;

    •   NIST SP 800-83, Guide to Malware Incident Prevention and Handling;

    •   NIST SP 800-88, Guidelines for Media Sanitization;

    •   NIST SP 800-92, Guide to Computer Security Log Management;

    •   NIST SP 800-97, Establishing Wireless Robust Security Networks: A Guide to IEEE
        802.11i;

    •   NIST SP 800-100, Information Security Handbook: A Guide for Managers;

    •   NIST SP 800-114, User’s Guide to Securing External Devices for Telework and Remote
        Access;

    •   NIST SP 800-123, Guide to General Server Security;


High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433) 13
    •   NIST SP 800-124, Guidelines on Cell Phone and PDA [Personal Digital Assistant]
        Security;

    •   NIST FIPS Publication 199, Standards for Security Categorization of Federal
        Information and Information Systems;

    •   NIST FIPS Publication 200, Minimum Security Requirements for Federal Information
        and Information Systems;

    •   NIST FIPS Publication 140-2, Security Requirements for Cryptographic Modules;

    •   Office of Management and Budget Circular A-130, Management of Federal Information
        Resources, Appendix III, “Security of Federal Automated Information Resources”; and

    •   Title 45 CFR.




High-Risk Security Vulnerabilities in the Automated Systems Used To Process Medicaid Claims (A-07-14-00433) 14
